2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

CKLE

Le g al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-97

MASSACHUSETTS LOBSTERMEN’S ASS’N, et al.,
Petitioners,

v.
WILBUR ROSS, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR AMICUS CURIAE AMERICAN FOREST
RESOURCE COUNCIL SUPPORTING PETITIONERS in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
DAVID O. BECHTOLD LAWSON E. FITE
NORTHWEST RESOURCE Counsel of Record
LAW PLLC SARA GHAFOURI
1500 S.W. First Avenue, . AMERICAN FOREST RESOURCE
Suite 985 COUNCIL
Portland, OR 97201 700 N.E. Multnomah Street,
Suite 320
Portland, OR 97232
(503) 222-9505
Ifite@amforest.org

Counsel for Amicus Curiae

Subscribed and sworn to before me this 3 Ist day of August, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

ORE] Kense 0. tooo Ondane hl. Ql

Exp. September 5, 2023

 

 

Notary Public Affiant 40065
SERVICE LIST

No. 20-97

JONATHAN WOOD

Pacific Legal Foundation

3100 Clarendon Blvd, Suite 610
Arlington, Virginia 22201

(202) 888-6881
jwood@pacificlegal.org

Attorney for Petitioners

JEFFREY B. WALL

Acting Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Attorney for Respondents
